           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
     BY THE FLORIDA DIVISION OF
    DISABILITY DETERMINATIONS

      June 2010   A-15-10-11051




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      June 28, 2010                                                                    Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Administrative Costs Claimed by the Florida Division of Disability Determinations
           (A-15-10-11051)


           OBJECTIVE
           The objectives of our audit were to evaluate the Florida Division of Disability
           Determinations’ (FL-DDD) internal controls over the accounting and reporting of
           administrative costs; determine whether costs claimed were allowable and properly
           allocated and funds were properly drawn; and assess the general controls environment
           for the claims processing system. Our audit included the administrative costs claimed
           by the FL-DDD during Federal Fiscal Years (FY) 2008 and 2009.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State or other responsible jurisdiction in accordance with
           Federal regulations. 1 Such determinations must be performed in accordance with
           Federal law and underlying regulations. 2 In carrying out its obligation, each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations. To assist in making proper disability

           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
           2
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - The Commissioner


determinations, each DDS is authorized to purchase medical examinations, X rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources. 3

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 4 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 5 As of September 30, 2009 for
FYs 2008 and 2009, the FL-DDD received authorized funding of $99,804,199 and
$111,905,108, respectively.

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the FY, each DDS submits a State
Agency Report of Obligations for SSA Disability Programs (SSA-4513) to account for
program disbursements and unliquidated obligations. 6 The SSA-4513 reports
expenditures and unliquidated obligations for Personnel Service Costs, Medical Costs,
Indirect Costs, and All Other Non-personnel Costs.

The Florida Department of Health (FL-DOH) is the FL-DDD’s parent agency. The FL-
DOH and FL-DDD central office are located in Tallahassee, Florida. The FL-DDD also
has branch offices in Jacksonville, Miami, Orlando, Pensacola, and Tampa, Florida.

RESULTS OF REVIEW
Generally, the FL-DDD had effective controls over the accounting and reporting of
administrative costs; costs claimed by the FL-DDD were allowable and properly
allocated; and funds were properly drawn. Also, during our assessment of the FL-DDD
general security controls environment, nothing came to our attention to suggest
deficiencies in these controls. We did find an instance where occupancy costs for five
FL-DDD leased buildings in Tallahassee, Florida were overcharged in FY 2009 by
$20,551. We found the error occurred because of a transposition in the rate calculation.
As a result of the overcharge, the FL-DDD sought and received a repayment of the
amount from the landlord in the form of reduced lease payments for April 1 through
October 31, 2010. Since the FL-DDD will be paying its Tallahassee landlord a reduced

3
    20 C.F.R. §§ 404.1623-1624 and 416.1023-1024
4
    31 C.F.R. § 205.1 et seq.
5
 Pub. L. No. 101-453, 104 Stat. 1058, (codified as amended in scattered sections of 31 U.S.C. §§ 3335,
6501 and 6503).
6
 SSA, Program Operations Manual System, DI 39506.200 B.4, (Providing that “. . . [u]nliquidated
obligations represent obligations for which payment has not yet been made. Unpaid obligations are
considered unliquidated whether or not the goods or services have been received.”)
Page 3 - The Commissioner


lease amount for 7 months, the FL-DDD will be drawing down less money from SSA;
therefore, SSA will have effectively received its complete overpayment refund by
October 31, 2010. After reviewing this matter with the FL-DDD staff, we do not believe
this is a systemic problem. FL-DDD staff has shown sufficient evidence that this was a
one-time occurrence. We verified future lease payment amounts for FYs 2010 and
2011 and found they were being computed as stated in the lease agreement. We are
not making a recommendation on this issue, since we believe the problem has been
adequately addressed.

CONCLUSION
Our review of administrative costs generally found the FL-DDD had effective controls
over the FY 2008 and 2009 accounting and reporting of administrative costs. Further,
we found costs claimed by the FL-DDD were allowable and properly allocated and
funds were properly drawn with the exception of an error in calculation of lease
payments resulting in a $20,551 overpayment in FY 2009. We found the conditions of
the overcharge and repayment have been adequately addressed. We therefore are not
making any recommendation on that issue. Also, during our assessment of the FL-DDD
general security controls environment, nothing came to our attention to suggest
deficiencies in these controls.




                                                  Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Florida Division of Disability Determinations Reported Costs
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
Act        Social Security Act
CE         Consultative Examination
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FL-DDD     Florida Division of Disability Determinations
FL-DOH     Florida Department of Health
FY         Fiscal Year
OIG        Office of the Inspector General
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
                                                                          Appendix B

Scope and Methodology
S COP E
To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System, and other
    criteria relevant to administrative costs claimed by the Florida Division of Disability
    Determinations (FL-DDD) and the draw down of SSA funds.

•   Interviewed staff and officials at the FL-DDD, Florida Department of Health, SSA’s
    Atlanta Regional Office, and Headquarters Finance Office.

•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Reconciled State accounting records to the administrative costs reported by the
    FL-DDD on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Federal Fiscal Years (FY) 2008 and 2009.

•   Examined specific administrative expenditures (Personnel, Medical Services, and All
    Other Non-personnel Costs) incurred and claimed by the FL-DDD for FYs 2008 and
    2009 on the SSA-4513. We used statistical sampling to select expenditures to test
    for documentation of the Medical Services, Personnel, and All Other Non-personnel
    Costs.

•   Examined and recalculated indirect costs claimed by the FL-DDD for FYs 2008 and
    2009.

•   Compared the amount of SSA funds drawn to support FL-DDD operations to the
    cost records as reported on SSA-4513.

We determined the data provided by FL-DDD used in our audit were sufficiently reliable
given the audit objectives and intended use of the data. As part of our assessment of
the reliability of the data, we reconciled it to the costs claimed on the SSA-4513. We
also conducted detailed audit testing on selected data elements in the electronic data
files. We performed our audit work at the FL-DDD central office in Tallahassee, Florida,
along with limited work in the Tampa, Florida, branch office. We also conducted work in
our Office of Audit at SSA Headquarters. We conducted fieldwork from October 2009
through May 2010. Our audit was conducted in accordance with generally accepted
government auditing standards.


                                             B-1
METHODOLOGY
Our sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 as follows: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Non-
personnel Costs. We obtained electronic records that supported the Personnel,
Medical, and All Other Non-personnel costs for FYs 2008 and 2009 for use in sampling.
These records were obtained from the Florida Accounting Information Resource system
used by the State of Florida and the FL-DDD for the preparation of the SSA-4513.
Analytical work was conducted for the indirect costs (see the Indirect Cost section
below).

Personnel Costs

We randomly selected 1 pay period in the most recent year under review. We then
selected a random sample of 50 regular employees. We tested FL-DDD payroll records
to ensure FL-DDD correctly paid employees and adequately documented these
payments.

For medical consultant costs, we selected 1 pay period in the most recent year under
review. We then selected a random sample of 50 consultants. We verified that the
medical consultants were paid in accordance with the approved contract.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
Medical costs based on the proportion of medical evidence of record and consultative
examination (CE) costs to total medical costs claimed. Additionally, we conducted
analytical work to determine whether the FL-DDD CE rates exceeded the highest rate
paid by Federal or other agencies in the State for the same or similar types of service.

Indirect Costs

We calculated the FL-DDD indirect costs for FYs 2008 and 2009 by applying the
federally approved rates 1 to the payroll cost bases (direct salaries and wages including
all fringe benefits). For FY 2008, a provisional rate of 5.1 percent was used from
October 2007 to May 2008; starting in June 2008 a final rate was assigned at
6.6 percent. For FY 2009, we calculated indirect cost using the 6.6-percent rate. The
Indirect Cost agreement indicated the final rate of 6.6 percent was to be followed as a
provisional rate after June 30, 2008.




1
 Rates approved by the Department of Health and Human Services (Federal cognizant agency) for the
State Department of Health (the parent agency of the FL-DDD).

                                                B-2
All Other Non-personnel Costs

We selected a stratified random sample of 100 items (50 items for each FY) from the All
Other Non-personnel Costs category (except for occupancy). Before selecting the
sample items, we stratified the transactions in the nine cost categories. We then
distributed the 50 sample items for each year between categories based on the
proportional distribution of the costs. We conducted a 100-percent review of the FL-
DDD occupancy costs for 1 randomly selected month in FYs 2008 and 2009. Also, we
reviewed the occupancy costs for the final month contained in our electronic data files
for FY 2008. 2




2
    For FY 2008, occupancy costs through September 30, 2009 were included in our electronic files.

                                                    B-3
                                                                            Appendix C

Florida Division of Disability Determinations
Reported Costs

                      Reported Costs on Form SSA-4513

                          Federal Fiscal Year 2008
                     For the Period Ended 09/30/2009
                           Disbursement Unliquidated           Total
         Cost Areas               s         Obligations    Obligations
  Personnel                 $ 54,145,189                $0 $ 54,145,189
  Medical Service             $31,345,615           $1,055   $31,346,670
  Indirect                     $2,948,442               $0    $2,948,442
  All Other Non-personnel     $11,337,423          $10,000   $11,347,423
  Total                     $ 99,776,669 $         11,055 $ 99,787,724



                                  Federal Fiscal Year 2009
                              For the Period Ended 09/30/2009
                            Adjustment of
                                Lease                      Unliquidated    Total
         Cost Areas          Overcharge Disbursements Obligations        Obligations
  Personnel                                $ 55,839,368 $ 2,919,631 $ 58,758,999
  Medical Service                              32,593,187      3,762,066   36,355,253
  Indirect                                       3,026,694       126,308     3,153,002
  All Other Non-personnel   $     (20,551)     10,017,252      3,137,669   13,154,921
  Total                     $     (20,551) $ 101,476,501 $ 9,945,674 $ 111,422,175
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager

Acknowledgments

In addition to those named above:

   Sig Wisowaty, Senior Auditor

   Lori Lee, Auditor

   Upeksha Peramune, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-11051.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
